             Audit Report



Cost Savings Planned and Achieved
   Through the Social Security
   Administration’s Information
Technology Development Initiatives




      A-14-13-13042 | October 2013
MEMORANDUM


Date:      October 1, 2013                                                    Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Cost Savings Planned and Achieved Through the Social Security Administration’s Information
           Technology Development Initiatives (A-14-13-13042)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had achieved the planned cost savings for its
           information technology initiatives.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Cost Savings Planned and Achieved Through the Social
Security Administration’s Information Technology
Development Initiatives
A-14-13-13042
October 2013                                                                Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            We could not determine whether SSA had realized the planned cost
Security Administration (SSA) had          savings for its IT initiatives because SSA had not calculated actual
achieved the planned cost savings for      savings after project implementation. Additionally, SSA did not
its information technology (IT)            have a process to assess the overall effectiveness of its IT capital
initiatives.                               planning and investment control process. As a result, SSA did not
                                           know whether the IT investments achieved the planned full-time
Background                                 equivalent (FTE) savings or any productivity improvements.

In an April 2009 report, we noted that     We acknowledge that challenges exist in measuring cost savings
SSA’s 7-year projected savings for         attributable to specific IT initiatives. However, we believe that
new and continued IT projects in FYs       without a PIR process, there is no means to assess the reliability of
2007 through 2009 were $10 to $20          cost-benefit analyses prepared to justify the selection of IT
billion. In our report, we expressed       initiatives each year and the allocation of scarce resources. For
concern that these estimates were not      example, cost-benefit analyses prepared for FY 2007 and 2008 IT
realistic and did not reconcile to the     initiatives projected that, over 7 years, SSA would save, or avoid
Agency’s annual productivity               using, over 73,200 FTEs as a direct result of these projects. We
statistics.                                used available Agency data to evaluate this estimate. However, we
                                           could not demonstrate that SSA achieved the planned cost savings
The Clinger Cohen Act requires that        and avoidances for its IT initiatives because we could not isolate
agencies implement a capital planning      IT-related savings from other factors, such as process efficiencies
and investment control process to          and increases in staff knowledge, skills, and abilities. To its credit,
maximize the value of IT acquisitions.     SSA stated it planned to establish its PIR process in the next few
Further, the Office of Management and      months.
Budget mandated that Federal agencies
perform post-implementation reviews        Our Recommendation
(PIR). We noted in a 2010 report that
SSA’s proposed PIR process, as             To help SSA determine the actual benefits and costs of its IT
described in its PIR Framework,            investments and enhance its IT planning process, we recommend
needed enhancements to meet Federal        that the Agency continue implementing a cost-effective PIR process
and SSA requirements, including            to verify whether its IT investments are meeting planned savings,
validating anticipated benefits, such as   including FTEs.
cost savings.
                                           SSA agreed with our recommendation.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     SSA Did Not Determine Actual Cost Savings and Avoidances from its IT Projects ................3
     Estimated FTE Cost Savings and Avoidances from SSA IT Initiatives ....................................5
Conclusions ......................................................................................................................................9
Recommendation .............................................................................................................................9
Agency Comments ...........................................................................................................................9
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Selection of Agency Workloads and Work Years Used by Fiscal Year............. B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)
ABBREVIATIONS
CBA                  Cost-Benefit Analysis

FTE                  Full-Time Equivalent

FY                   Fiscal Year

IT                   Information Technology

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

PIR                  Post-Implementation Review

RSI                  Retirement Survivors Insurance

SSA                  Social Security Administration




Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had achieved
the planned cost savings 1 for its information technology (IT) initiatives.

BACKGROUND
SSA relies on IT to deliver many services to the public. With over 60 years of computing
experience, the Agency considers itself a pioneer organization for extremely large, centralized,
and cost-effective IT service delivery. In Fiscal Year (FY) 2012, SSA spent approximately
$1.5 billion on IT investments. SSA has stated its IT investments have been critical to increasing
its average annual employee productivity. 2 For example, the Agency indicated that IT
investments in online services and the disability process have allowed it to keep pace with recent
workload increases. 3

Each year, the Agency assesses proposed IT investments to select initiatives that will improve
the organization’s overall performance. Consistent with Federal guidance, 4 SSA policy requires
that IT initiatives “. . . deliver a measurable net benefit worth the investment.” 5 Specifically, the
Agency requires a cost-benefit analysis (CBA) for every IT project proposal. 6 While SSA
considers additional factors when prioritizing IT projects, 7 the selection process includes
consideration of projected costs and savings, including cost avoidance. 8

In an April 2009 report, 9 we noted that SSA’s 7-year projected savings for new and continued IT
projects in FYs 2007 through 2009 were $10 to $20 billion. In our report, we expressed concern




1
 Throughout our report, the term “cost savings” includes cost avoidances, which are actions taken to reduce future
costs.
2
    SSA, Full Justification of Estimates for Appropriations Committees, Feb. 2012, www.ssa.gov/budget/, p. 19.
3
    Id.
4
  Office of Management and Budget (OMB), Circular No. A-130 Revised, Management of Federal Information
Resources, November 28, 2000, establishes policy for the management of Federal information resources. This
Circular provides that as part of the selection component of the capital planning process, agencies must
“. . . demonstrate a projected return on the investment that is clearly equal to or better than alternative uses of
available public resources.” Id. at § 8.b.(1)(b)(v).
5
    SSA, Capital Planning & Investment Control, May 2012, p. 18.
6
 Id. at p. 15. CBAs are required for all new and revisited IT proposals, and amended CBAs for carryover proposals
with a scope change.
7
    Other factors include risk, schedules, and alignment with Agency goals and performance objectives.
8
    SSA, Capital Planning & Investment Control, May 2012, p. 14.
9
 SSA OIG, Congressional Response Report: Opportunities and Challenges for the Social Security Administration
(A-08-09-29152), April 2009, pp. 18-19.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                            1
that these estimates were not realistic and did not reconcile to the Agency’s annual productivity
statistics. 10

The Clinger Cohen Act requires that agencies design and implement a capital planning and
investment control process to maximize the value and assess and manage the risks of IT
acquisitions. 11 This process is required to provide for the evaluation of the results of IT
investments. 12 OMB provided detailed guidance on the evaluation component of the capital
planning process, which requires that Federal agencies perform post-implementation reviews
(PIR) of information systems and information resource management processes to validate
estimated benefits and costs and document effective management practices for broader use. 13
The guidance also requires, among other things, that the Agency evaluate systems to ensure
positive return on investment and decide whether continuation, modification, or termination of
the systems is necessary to meet agency mission requirements. 14 Finally, the Paperwork
Reduction Act of 1995 establishes “a broad mandate for agencies to perform their information
resources management activities in an efficient, effective, and economical manner.” 15

In a 2007 review, 16 we determined that although SSA had established a PIR policy, it had not
established a process to determine whether its IT projects actually achieved their planned cost
savings. In addition, we noted in a 2010 report 17 that SSA’s proposed PIR process, as described
in its PIR Framework, needed enhancements to meet Federal and SSA requirements, including
validating anticipated benefits, such as cost savings.

To meet our objective, we analyzed Federal criteria and SSA policies and procedures regarding
IT capital planning. We interviewed staff from SSA’s Office of Systems and analyzed Agency
data on its processed workload volumes and work years. Finally, we reviewed Agency data on
the costs and projected savings and cost avoidances of IT projects included in its FY 2007-2008



10
  Id. at p. 19. For FY 2007, SSA reported a productivity increase of about 2 percent using a 5-year rolling average.
On p. 1 of SSA’s FY 2012 Performance and Accountability Report, the Agency reported average productivity
increase of over 4.7 percent a year from FYs 2008 through 2012.
11
     Clinger-Cohen Act, Pub. L. No. 104-106, § 5122(a), 110 STAT. 186, 683.
12
     Id. at § 5122 (b)(1).
13
     OMB, Circular No. A-130 supra at § 8.b.(1)(d)(i).
14
  OMB, Circular No. A-130 supra at § 8.b.(1)(d)(ii). Similarly, other OMB guidance states that each PIR should
assess, among other things, how well an IT investment achieved the planned functionality and anticipated benefits.
See OMB, Capital Programming Guide V 3.0, Supplement to Office of Management and Budget Circular A-11:
Planning, Budgeting, and Acquisition of Capital Assets, July 2012, § III.3.3.
15
  OMB, Circular No. A-130 supra at § 5. Paperwork Reduction Act of 1995, §§ 3501(5) and 3506(a)(1)(A), 44.
U.S.C. §§ 3501(5) and 3506(a)(1)(A).
16
  SSA OIG, Social Security Administration’s Management of Information Technology Projects (A-14-07-17099),
July 26, 2007.
17
  SSA OIG, The Social Security Administration’s Post-Implementation Review Process (A-14-10-30105),
June 22, 2010.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                           2
Agency IT Systems Plan. We selected projects from this Plan to ensure sufficient time had
elapsed for project completion and analysis. Our review focused on full-time equivalent (FTE) 18
savings and cost avoidances created by IT projects. We would expect such savings and cost
avoidances to correlate to an increase in SSA employee productivity statistics. For additional
scope and methodology, see Appendix A.

RESULTS OF REVIEW
We could not determine whether SSA had realized the planned cost savings for its IT initiatives
because SSA had not calculated actual savings after project implementation. Additionally, SSA
did not have a process to assess the overall effectiveness of its IT capital planning and
investment control process. As a result, SSA did not know whether the IT investments achieved
the planned FTE savings or any productivity improvements.

We acknowledge that challenges exist in measuring cost savings attributable to specific IT
initiatives. However, we believe that without a PIR process, there is no means of assessing the
reliability of CBAs prepared to justify the selection of IT initiatives each year and the allocation
of scarce resources. For example, CBAs prepared for FY 2007 and 2008 IT initiatives projected
that, over a 7-year period, SSA would save or avoid using over 73,200 FTEs as a direct result of
these projects. 19 We used available Agency data to evaluate this estimate. However, we could
not demonstrate that SSA achieved the planned cost savings and avoidances for its IT initiatives
because we could not isolate IT-related savings from other factors, such as process efficiencies
and increases in staff knowledge, skills, and abilities. To its credit, SSA indicated it planned to
establish its PIR process in the next few months.

SSA Did Not Determine Actual Cost Savings and Avoidances from
its IT Projects
SSA did not verify whether its IT projects achieved the cost savings and avoidances projected
during its IT planning process. We acknowledge the Agency faces many obstacles in validating
cost savings and avoidances after project implementation. However, without these data, SSA did
not know whether IT investments achieved the anticipated cost savings and avoidances.
Additionally, absent this information, we could not accomplish our audit objective to determine
whether SSA’s IT projects achieved the planned cost savings or avoidances. As shown in
Table 1, the approximate 7-year FTE cost savings and avoidances for projects in SSA’s




18
     One FTE is equivalent to one employee working full-time.
19
  We calculated the projected FTE cost savings and avoidances by adding individual project data from SSA’s
FY 2007-2008 Agency IT Systems Plan. For various reasons, the expected costs, savings and avoidances may be
higher or lower than these calculations. For example, SSA may not move forward with all of the planned projects,
and some projects may overlap one another. We also noted that the plan did not include FTE cost savings and
avoidances for all projects.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                         3
FY 2007-2008 Agency IT Systems Plan was 73,200. 20 Table 1 also presents approximate dollar
savings, avoidances, and project costs for these initiatives.

            Table 1: Cost Savings and Avoidances and Project Costs Estimated in SSA’s
                               FY 2007-2008 Agency IT Systems Plan
                     (Projects with FTE Cost Savings and Avoidances over 100)
                                FTE Cost           Net Cost Savings            Project
                               Savings and          and Avoidances             Costs 21
                               Avoidances          over 7-Year Span           (Millions)
                               over 7-Year            (Millions)
                                  Span
                                 73,200                   $8,200                  $1,700

Agency staff stated it was difficult to isolate the benefits of a single project because of the
constant changes to its environment. For example, one workload may be impacted by multiple
IT projects, and one IT project may influence multiple workloads. In addition, an IT
development project may have multiple releases, while other projects are ongoing to support the
Agency’s IT infrastructure. Further, SSA staff stated that policy and legislation changes
included in some projects may not create extra benefits. While the Agency may be able to
identify an overall change in productivity for a workload, it could be difficult to determine how
specific IT projects impacted this change.

We identified another area that affects SSA’s ability to validate actual cost savings. SSA tracks
the status and cost of its IT projects at a sub-project 22 level. However, Agency staff performs
CBAs at either the sub-project level or a higher, “core” project level. For example, the left chart
of Figure 1 illustrates that SSA’s expected cost savings and avoidances from sub-projects would
be included in the CBA for the core project. The right chart in Figure 1 illustrates that a core
project could link to multiple sub-projects, each of which had an individual CBA.




20
     See Footnote 19.
21
     We calculated project costs by subtracting net savings from total savings.
22
  We use the term “sub-project” to refer to the various releases or smaller projects that fall under a larger, “core”
project.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                              4
                     Figure 1: CBAs Performed at Different Project Levels




We requested SSA’s actual cost savings that resulted from the implementation of IT projects. As
of the date of this review, the Agency could not provide this information. The Agency provided
cost data at the sub-project level, but we were unable to map the sub-projects to the CBA-level
projects or core project level. Consequently, we were unable to compare estimated costs from
CBAs to actual project costs.

Despite these limitations, we attempted to determine whether SSA achieved the FTE cost savings
and avoidances expected from the IT initiatives in it FY 2007-2008 Agency IT Systems Plan but
could not demonstrate that SSA achieved the planned cost savings and avoidances. We could
not isolate the cost savings and avoidances realized from the IT initiatives from cost savings and
avoidances attributed to other factors, such as process efficiencies and increases in staff
knowledge, skills, and abilities.

Estimated FTE Cost Savings and Avoidances from SSA IT
Initiatives
To assess the estimated FTE cost savings and avoidances documented in SSA’s FY 2007-2008
IT Systems Plan, we analyzed data for SSA work years and workload volume. As shown in
Table 2, if the Agency’s productivity level had not increased since 2007, SSA would have
needed an additional 46,279 FTEs to complete the same volume of work, or an average of
9,256 FTEs per year. See Appendix B for a selection of SSA’s processed workload volume and
work years.




Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)      5
      Table 2: Office of the Inspector General (OIG)-calculated FTE Cost Savings and
               Avoidances from Agency Productivity Improvements by FY 23

                                       2007       2008       2009       2010       2011       2012       Total

Work Years Used to Process
                                      54,681     55,425     58,002     60,934     60,630     58,421 348,093
Actual Workloads
Work Years SSA Would Have
Required to Process Actual
                           54,681                58,706     63,969     68,793     71,988     76,234 394,372
Workloads at the 2007
Production Rate 24
OIG-Calculated FTE Cost    Base
                                                   3,281      5,967      7,859    11,358     17,813      46,279
Savings and Avoidances     Year

During this period, SSA had a net loss of just over 1,000 permanent staff but increased
productivity for some workloads. For example, in FY 2007, SSA processed 3.9 million
Retirement Survivors Insurance (RSI) claims. That number increased to 5 million in FY 2012.

Next, we compared the realized FTE cost savings and avoidances as calculated above to our
calculation of SSA’s estimated 73,200 FTE cost savings and avoidances over a 7-year period
from its FY 2007-2008 IT Systems Plan. We allocated the 73,200 over the 7 years assuming the
estimated FTE cost savings and avoidances would increase by the same amount (2,614) each
year. 25 Table 3 shows the results of our calculations and comparisons.




23
  This Table was derived from data in SSA’s Workload Trend Reports. The Table extends through FY 2012 since
that was the last full FY for which data were available. The Table excludes “Staff and Measurable Support
functions,” such as program policy and financial management. The Table also excludes workloads with no
associated volume.
24
 For example, in FY 2007, SSA used 6,673 work years to process 3,863,813 RSI Claims, or 579 RSI claims per
work year. We applied the same 2007 productivity rate to actual workload volumes for FYs 2008 to 2012.
25
  For our analysis, we assumed the Agency would realize new cost savings and avoidances at a constant rate and
that upon implementation, an IT project would deliver the same amount of cost savings and avoidances annually.
As illustrated in the second row of Table 3, annual increases of 2,614 FTEs total 73,200 FTEs over 7 years.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                       6
       Table 3: Comparison of OIG-calculated and SSA-estimated FTE Cost Savings and
                                    Avoidances by FY
                                                                           Total                         Total
                      2007    2008     2009    2010     2011      2012    Through   2013       2014     Through
                                                                           2012                          2014
OIG-Calculated
FTE Cost
                      Base
Savings and                    3,281   5,967    7,859   11,358   17,813    46,279            Yet to Occur
                      Year
Avoidances
(Table 2)
Pro-Rata FTE
Cost Savings and
Avoidances
                      Base
Estimated Based                2,614   5,229    7,843   10,457   13,071    39,214   15,686     18,300       73,200
                      Year
on SSA's FY
2007-2008 IT
Systems Plan

Although Table 3 indicates productivity improvements greater than the estimated pro-rata FTE
cost savings and avoidances, this analysis was limited by the following factors.

•      The OIG-calculated FTE cost savings and avoidances represent all SSA productivity
       improvements, including those unrelated to IT investments. For example, in addition to IT-
       related productivity improvements, SSA attributed productivity improvements to streamlined
       and simplified business processes, policies, and procedures. 26 The Agency also reported that
       staff development, such as training initiatives 27 and increased experience, 28 resulted in
       productivity improvements. However, we were unable to isolate the cost savings and
       avoidances realized from the implementation of IT initiatives and those attributed to other
       factors, such as process efficiencies and increases in staff knowledge, skills, and abilities, to
       complete Agency workloads.

•      The estimated FTE cost savings and avoidances from projects in the FY 2007-2008 Agency
       IT Systems Plan may be higher or lower than our calculation of 73,200 FTEs. For example,
       SSA staff stated that some projects in the Plan may overlap, overstating the estimated cost
       savings and avoidances in our calculation. Conversely, the Plan did not identify the FTE cost
       savings and avoidances for all projects, understating our calculation. For example, the Plan
       did not break out planned FTE cost savings and avoidances for SSA’s Electronic Disability
       project, a major initiative that moves the Agency away from a paperbound disability process.




26
     SSA, SSA’s FY 2009 Performance and Accountability Report, p. 78.
27
     SSA, SSA’s FY 2011 Performance and Accountability Report, p. 20.
28
     SSA, SSA’s FY 2012 Performance and Accountability Report, p. 1.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                      7
•      We also noted some data reasonability and reliability issues with SSA’s data.

          o Almost 75 percent of the FTE cost savings and avoidances indicated in SSA’s
            FY 2007-2008 IT Systems Plan related to infrastructure projects rather than projects
            that link directly to specific program workloads. One might expect that projects linked
            to a specific program workload would produce a higher percentage of FTE cost
            savings and avoidances since they directly impact a business process.

          o One of our prior reviews found SSA’s critical workload measurement data were
            unreliable. 29

In addition, estimation errors of cost savings and avoidances at the individual IT project level
may not be apparent by analyzing productivity improvements at the Agency level. For example,
certain IT projects may not achieve the anticipated cost savings and avoidances, while others
may exceed expectations. Without conducting PIRs, SSA does not know whether it has made
proper investment decisions and cannot use that information to help improve its decisionmaking
process.

SSA stated that its IT investments had been critical to increasing its average annual employee
productivity. 30 However, SSA did not know how much Agency productivity had increased
because of its IT investments. SSA did not know because it did not determine to what extent its
IT investments impact its productivity.

To meet Federal requirements and help the Agency determine the actual cost savings and
avoidances of an IT project, 31 SSA needed to complete development and implementation of a
PIR process. A PIR is an important diagnostic tool to evaluate the overall effectiveness of an
agency's capital planning and acquisition process. PIRs can identify how accurately a capital
investment project meets the objectives, expected benefits, and the strategic goals of an agency.
Further, a PIR can ensure continual improvement of an agency's capital programming process
based on lessons learned and help minimize the risk of repeating past mistakes.

When designing a PIR process, SSA should consider the nature of its IT capital planning and
investment control processes and the structure of its IT Systems to identify a proper project
boundary for the PIR. In addition, SSA needs to determine the appropriate time to conduct a PIR
especially for IT projects that have high dollar planned cost savings, avoidances, and project
costs.




29
     OIG, The Social Security Administration Cost Allocation Methodology (A-15-10-20152), June 18, 2012, p. 7.
30
     SSA, Full Justification of Estimates for Appropriations Committees, Feb. 2012, www.ssa.gov/budget/, p. 19.
31
     See Background section for a discussion of Federal requirements.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                        8
In July 2013, the Agency stated that it completed a customized PIR framework, which it used to
evaluate its Telephone System Replacement Project. 32 SSA planned to use lessons learned from
this evaluation to finalize its PIR procedures. Therefore, we recommend SSA continue
implementing a cost-effective PIR process to verify whether its IT investments are meeting
planned savings, including FTEs. Further, by conducting PIRs, SSA can use the results to
enhance its IT planning process.

CONCLUSIONS
Although SSA’s IT project selection process considered estimated cost savings, the Agency had
not validated these estimates. Therefore, SSA did not know, and we could not determine,
whether its IT investments achieved the anticipated cost savings.

In an environment of shrinking budgets, limited resources, and increasing workloads, it is
imperative that SSA use its IT resources effectively and efficiently. PIRs are a mandatory and
important diagnostic tool to evaluate the overall effectiveness of an agency’s capital planning
and acquisition process. An effective PIR process will allow the Agency to identify and promote
effective management practices, while offering the opportunity to learn from and avoid repeating
unfavorable practices.

SSA recognized the importance of PIRs in assessing its IT capital planning, and we commend
the Agency for its efforts to develop a PIR process. However, the Agency cannot reap the
benefits of these efforts until it fully implements its PIR process.

RECOMMENDATION
To help SSA determine the actual benefits and costs of its IT investments and enhance its IT
planning process, we recommend that the Agency continue implementing a cost-effective PIR
process to verify whether its IT investments are meeting planned savings, including FTEs.

AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix C for the full text of the Agency’s
comments.




32
  SSA implemented a multi-year replacement of its aged telephone systems with a centrally managed system to
carry voice and data on the same network. SSA expects the project to save administrative costs and support future
technological improvements.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                          9
                                       APPENDICES




Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)
Appendix A – SCOPE AND METHODOLOGY
To determine whether the Social Security Administration (SSA) achieved the planned cost
savings for its information technology (IT) initiatives, we:

•     Interviewed staff in SSA’s Office of Systems.

•     Examined SSA’s Fiscal Year 2007-2008 Agency IT Systems Plan and Agency data on
      completed IT releases.

•     Analyzed Agency data on its processed workload volumes and work years used.

•     Reviewed SSA policies and procedures, including the following.

               o Capital Planning & Investment Control

               o iCBA User’s Guide

•     Reviewed the following criteria.

               o The Clinger-Cohen Act, as amended

               o Office of Management and Budget (OMB) Circular No. A-130

               o OMB, Capital Programming Guide, V 3.0, Supplement to Office of Management
                 and Budget Circular A-11: Planning, Budgeting, and Acquisition of Capital
                 Assets

               o OMB, Guidance on Exhibits 53 and 300 – Information Technology and
                 E-Government, (2012)

Our review focused on full-time equivalent (FTE) 1 cost savings and avoidances created by IT
projects. We requested SSA’s actual cost savings and avoidances that resulted from the
implementation of IT projects. However, the Agency could not provide this information.
Therefore, we analyzed data for SSA work years and workload volume to assess the estimated
FTE cost savings and avoidances documented in SSA’s FY 2007-2008 IT Systems Plan. We
noted that one of our prior reviews found SSA’s critical workload measurement data were
unreliable. 2 Further, we did not review SSA’s cost-benefit analyses (CBA) to assess the
accuracy of the estimated FTE cost savings and avoidances documented in the FY 2007-2008
Agency IT Systems Plan. Although, we noted concerns about the reliability of the data used for
this review, we attempted to meet our audit objectives using these data.


1
    One FTE is equivalent to one employee working full-time.
2
    OIG, The Social Security Administration Cost Allocation Methodology (A-15-10-20152), June 18, 2012, p. 7.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                      A-1
In addition, we requested a list of completed IT projects at a CBA level to compare actual project
costs with estimated costs. The Agency provided data at the sub-project level 3; but we were
unable to map the sub-projects to CBA-level, or core, projects. Consequently, we were unable to
compare estimated costs from CBAs to actual project costs.

We conducted our audit in Baltimore, Maryland, from February through June 2013. The entity
reviewed was the Office of Systems. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
conduct the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




3
 We use the term “sub-project” to refer to the various releases or smaller projects that fall under a larger, “core”
project.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                             A-2
Appendix B – SELECTION OF AGENCY WORKLOADS AND
             WORK YEARS USED BY FISCAL YEAR
The following table identifies SSA’s workload volume processed and work years used for a
selection of workloads. The table includes the first and last 2 fiscal years within our scope for
comparability.

                              Workload Volume Processed 1                      Work Years Used1
                             2007            2011           2012          2007         2011        2012
Retirement
Survivors Insurance         3,863,813      4,795,086       5,001,092        6,673       6,694        6,207
Claims
Disability Insurance
                            2,649,004      3,569,976       3,406,955        7,637       7,739        6,933
Claims
Supplemental
Security Income               289,019        272,857         257,330          304         300          284
Aged Claims
SSI Blind &
                            2,377,201      2,887,776       2,695,685        4,585       4,468        3,991
Disabled Claims
Part D Subsidy
                            1,135,381      1,308,646       1,028,152          402         513          469
Claims
Retirement
Survivors Insurance             2,516           2,658          1,886          421         431          659
Hearings
Disability Insurance
                              402,163        563,837         583,910        6,386       7,651        7,990
Hearings
Supplemental
Security Income               356,311        548,083         565,778        3,544       4,819        4,805
Hearings
Social Security
Number Record             17,644,840      16,975,774     16,722,682         3,414       3,157        2,921
Maintenance




1
 SSA Workload Trend Report, Fiscal Year 2010 Fourth Quarter Report and SSA Workload Trend Report, Fiscal
Year 2012 Fourth Quarter Report.



Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)                 B-1
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      September 11, 2013                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Cost Savings Planned and Achieved Through the
           Social Security Administration’s Information Technology Development Initiatives” (A-14-13-
           13042)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"COST SAVINGS PLANNED AND ACHIEVED THROUGH THE SOCIAL SECURITY
ADMINISTRATION’S INFORMATION TECHNOLOGY DEVELOPMENT
INITIATIVES" (A-14-13-13042)


Recommendation 1

Continue implementing a cost-effective PIR process to verify whether its IT investments are
meeting planned savings, including FTEs.

Response

We agree. We will continue to implement a cost-effective post-implementation review (PIR)
process to verify that our information technology (IT) investments are meeting planned savings,
including full-time equivalents. As noted in your report, in July 2013, we developed the
framework for a PIR process to assess our IT project performance. We recently evaluated our
Telephone System Replacement Project (TSRP) using our PIR process and will present the
TSRP PIR results to all executive stakeholders on September 13, 2013. In addition, we are
conducting a second PIR on the Access to Financial Institutions (AFI) project and anticipate a
draft AFI PIR report by the end of September 2013.

As we proceed, we will continuously fine-tune our PIR procedures to improve our application of
the PIR criteria to rate our IT investments. We plan to complete one PIR in each quarter of fiscal
year 2014.




Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)     C-2
Appendix D – MAJOR CONTRIBUTORS
Brian Karpe, Director, Information Technology Audit Division

Grace Chi, Audit Manager

Mike Zimmerman, Senior Auditor

Asad Isfahani, Auditor




Cost Savings Planned and Achieved through SSA’s IT Development Initiatives (A-14-13-13042)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
